FEDERAL PUBLIC DEFENDER
DISTRICT OF SOUTH CAROLINA
Parks N. Small
Federal Public Defender
1901 Assembly Street, Suite 200
Columbia, S.C. 29201
Tel: (803) 765-5070
Fax: (803) 765-5084

145 King Street, Suite 325
P.O. Box 876
Charleston, S.C. 29402
Tel: (843) 727-4148
Fax: (843) 727-4179

Two Liberty Square
75 Beattie Place, Suite 950
Greenville, S.C. 29601
Tel: (864) 235-8714
Fax: (864) 233-0188

McMillan Federal Building
Evans Street, Suite 105
P.O. Box 1873
Florence, S.C. 29503
Tel: (843) 662-1510
Fax: (843) 667-1355

Reply to: Columbia

October 13, 2020

Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 2054
RE:

USA VS. MICHAEL ANDREW GARY
CASE NUMBER: 20-444

Dear Mr. Harris:
The petition for writ of certiorari was filed in this case on October 5, 2020. Mr. Gary’s
response is currently due on November 6, 2020.
Pursuant to Supreme Court Rule 30.4, Mr. Gary respectfully requests a 32-day
extension to and including December 8, 2020 in which to file his response.
This extension is requested because of previous case-related obligations of Mr. Gary’s
counsel. Additionally, Jeffrey L. Fisher, Co-Director of Stanford’s Supreme Court Litigation
Clinic, will be co-counsel in this matter. He likewise has obligations in cases to which he
previously committed, including delivering oral arguments on November 4, 2020, in Fulton v.
City of Philadelphia, No. 19-123, and on November 30, 2020, in Van Buren v. United States, No.
19-783. Counsel’s previous case commitments result in the need for additional time in which to
prepare the response in this case.
We are cognizant that the Government filed the Petition for Certiorari in this case “at a
time calculated to allow for the Court to grant certiorari and decide the case on the merits during
the current Term.” Pet. 24. Granting this extension request would not jeopardize that goal. Under
the requested schedule, the case would be set for conference on January 8, 2021, the first
conference of the January sitting.

FEDERAL PUBLIC DEFENDER’S OFFICE
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
October 13, 2020/Page 2

We have consulted with the Office of the Solicitor General regarding this request and are
authorized to say that the government consents to it. The Office of the Solicitor General agreed to
service of this request by electronic means.

Very truly yours,
s/ Kimberly H. Albro
KIMBERLY H. ALBRO
Assistant Federal Public Defender
cc: Attached Service List

FEDERAL PUBLIC DEFENDER’S OFFICE
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
October 13, 2020/Page 3

S. Ct. Case No. 20-444
United States v. Michael Andrew Gary

Jeffrey B. Wall, Acting Solicitor General, Counsel of Record
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, D.C. 30530-0001
supremectbriefs@usdoj.gov
Benjamin W. Snyder
Assistant to the Solicitor General
Benjamin.Snyder@usdoj.gov

3

